U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 9, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: William Dale Wooden v. United States, No. 20-5279
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 24, 2020.
The government’s response is now due, after one extension, on November 23, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including December 23, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Because petitioner is an incarcerated federal prisoner proceeding pro se, we have not
obtained his consent to this request.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5279
WOODEN, WILLIAM DALE
USA

WILLIAM DALE WOODEN
48306-074
PO BOX 9000
FORREST CITY, AR 72336

